  Office of Inspector General
      Audit Report


CHALLENGES TO IMPROVING OVERSIGHT
    OF RAIL TRANSIT SAFETY AND
    IMPLEMENTING AN ENHANCED
           FEDERAL ROLE

        Federal Transit Administration

        Report Number: MH-2012-048
        Date Issued: January 31, 2012
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Challenges to Improving Oversight of                                       Date:    January 31, 2012
           Rail Transit Safety and Implementing an Enhanced
           Federal Role
           Federal Transit Administration
           Report Number MH-2012-048

  From:    Lou E. Dixon                                                                    Reply to
                                                                                                       JA-1
                                                                                           Attn. of:
           Principal Assistant Inspector General
              for Auditing and Evaluation

    To:    Federal Transit Administrator


           Rail transit incidents since 2009 have raised significant concerns about safety
           oversight of the Nation's transit systems. Most notably, the National
           Transportation Safety Board (NTSB) identified serious oversight lapses and a lack
           of a safety culture at the Washington Metropolitan Area Transit Authority
           (WMATA) following the June 2009 Washington, D.C., Metrorail accident, which
           killed 9 people and injured 70 others. In December 2009, the Secretary proposed
           legislation that would transform the Department's current role from providing
           guidance in support of state-managed oversight programs to directly overseeing
           transit safety. Congressional stakeholders have expressed both support and
           opposition to enhanced Federal rail transit oversight.

           Our audit objective was to identify future challenges the Federal Transit
           Administration (FTA) would likely face in developing and implementing
           enhanced rail transit safety oversight. We also identified actions FTA could take
           now, under its current authority, to improve safety oversight. Specifically, we
           assessed challenges related to (1) using the National Transit Database (NTD) 1 as
           an oversight tool, (2) employing performance measures to assess the impact of
           transit safety activities, (3) establishing new rail transit safety standards if enabling
           legislation is enacted, and (4) providing oversight and enforcement of any new
           national safety standards.

           1
               Congress established the NTD as the primary source of information and statistics on transit systems in the United
               States. NTD data are used to apportion over $5 billion of FTA funds annually to transit agencies in urbanized areas.
                                                                                      2


We conducted this audit in accordance with generally accepted Government
auditing standards. To conduct our work, we interviewed a range of industry
stakeholders and reviewed our prior audit work on other transportation safety
programs, and relevant Government Accountability Office (GAO) and NTSB
work. Exhibit A cites the documents we reviewed in developing this report and
exhibit B provides additional information on our audit methodology. Exhibits C
and D include a synopsis of challenges, priority actions, and key management
questions for FTA's consideration.

RESULTS IN BRIEF
Although basic safety incident data, such as fatalities, injuries, and property
damage, are currently captured in the NTD, the data are insufficient for FTA to
effectively oversee transit safety at the national level. FTA needs more
comprehensive data, such as detailed information on the condition of the Nation's
transit assets, to fully identify safety risks and trends across the country, work with
the transit industry to prioritize actions to mitigate identified risks, and evaluate
the industry's performance in improving safety. FTA's own assessment determined
that it lacked a plan and tools to interpret safety priorities and provide user friendly
access to data analysis. Our discussions with transit agency stakeholders echoed
these concerns and indicated that FTA can do more now to maximize the
usefulness of NTD data. According to FTA, it has taken recent action to address
data challenges by completing the first two phases of its data management
assessment, cataloguing NTD data gaps, and working with an advisory committee
to identify data needs. Continuing to work actively with this advisory committee
to identify ways to address data gaps could help transit agency stakeholders
improve their safety activities and could better position FTA to assume an
enhanced oversight role.

FTA has not established goals, performance measures, and targets that are specific
to its current rail transit safety activities. Even without enhanced authority,
improved performance information would enable FTA to better assess the impact
of its current safety activities, and identify and share best practices nationwide. For
example, FTA could establish a separate performance measure in the Department's
Annual Performance Report related to reducing transit rail-related fatalities and
injuries. Currently, it reports on all modes of transit in a combined manner. A
separate measure for rail transit could serve as a baseline for evaluating its current
safety activities. If Congress expands FTA's oversight role, FTA would face
challenges in working with States and transit agencies to develop a uniform set of
national performance measures and processes for tracking and reporting
performance progress. This has been difficult, in part because State safety
oversight agencies (SSOA) directly oversee transit agencies―not FTA.
                                                                                                                        3


Establishing minimum national rail transit safety standards would present a
number of challenges to FTA if Congress expands its oversight role. For example,
FTA would be faced with establishing proposed safety management system
requirements and issuing timely guidance to transit agencies. This would include
prioritizing the greatest safety risks for rulemakings, enlisting leadership
commitment to expedite rulemakings, and periodically reviewing and revising
regulations as necessary. Although FTA is not authorized to issue national transit
safety standards, it is working with an advisory committee to improve safety and
prepare for enhanced safety oversight authority. Existing voluntary standards from
industry organizations, such as the American Public Transportation Association
(APTA), and the information the advisory committee collects could be useful to
FTA in the development of national safety standards and regulations, if it receives
enhanced authority.

An expanded oversight role would significantly increase FTA's oversight and
enforcement activities to ensure that State and local agencies implement any new
national standards and regulations. Developing a data-driven, risk-based oversight
system to identify and mitigate safety risks, and establishing criteria and guidance
for assessing and enforcing compliance with safety standards, would be key to
maximizing limited resources. Further, under an expanded role, FTA would need
to consider the organizational placement of its safety function and its resource and
personnel needs, such as acquiring skill sets and expertise it currently lacks. FTA
has taken steps toward addressing these issues, such as developing plans for the
reorganization and collection of safety management system information, which
could be used if enhanced oversight is authorized.

We are making a series of recommendations to improve FTA's oversight of rail
transit safety, under its current authority, related to new and increased use of
safety data and improved performance measures.

BACKGROUND
FTA's Office of Safety and Security implements ongoing rail transit safety
oversight and technical assistance programs, such as State safety oversight, drug
and alcohol testing compliance audits, and training for transit stakeholders. Under
the State Safety Oversight program, 2 States set their own rail transit safety
standards and oversee rail transit safety practices and procedures developed and
implemented by rail transit agencies. Currently, 28 SSOAs oversee 35 light rail
and 13 heavy rail systems operated by 48 transit agencies. 3 Federal and State
funding for transit safety oversight is limited. FTA's Safety and Security Office
operates with 2.5 full-time equivalent employees (FTE) devoted to the State Safety

2
    The Intermodal Surface Transportation Efficiency Act of 1991 created the State Safety Oversight program.
3
    Five agencies operate both heavy and light rail. Galveston Island Transit trolley service is currently suspended.
                                                                                                                     4


Oversight program. Excluding California, as of December 2009, SSOAs averaged
less than one employee.

According to the Secretary's legislative proposal, 4 the Department would be
required to: develop and implement a safety program for rail transit systems 5 that
receive Federal funding, establish and enforce Federal rail transit safety standards,
certify states’ eligibility for assistance to carry out a federally approved transit
safety program, and ensure that state agencies overseeing transit systems are fully
independent. The Secretary anticipates that it would take 3 years to fully develop
and implement these requirements.

COLLECTING DATA FOR EFFECTIVE SAFETY OVERSIGHT
Although basic safety incident data, such as fatalities, injuries, and property
damage, are captured in the NTD, the data may not be sufficient to allow FTA to
fully identify safety risks and trends across the country, work with the transit
industry to prioritize actions to mitigate identified risks, or evaluate the industry's
performance in improving safety. Actions to enhance its ability to provide
effective oversight of rail transit safety would include maximizing the usefulness
of current safety data, identifying additional data needs, and ensuring the quality
of safety data it receives from the industry.

Maximizing the Usefulness of Current Rail Transit Safety Data
Consulting with and leveraging the expertise of SSOAs, transit agencies, and other
industry stakeholders could help FTA maximize the usefulness of safety data it
receives under its current authority. In particular, the Transit Rail Advisory
Committee for Safety (TRACS), 6 APTA, and NTSB could provide insight on
maximizing the usefulness of data. Further, benchmarking of data, which the
Transportation Research Board (TRB) 7 has suggested, would allow transit
agencies to identify strengths, weaknesses, and best practices among transit
agencies to improve safety.

FTA collects safety data from transit agencies and SSOAs. In addition, it collects
financial, ridership, performance, and safety data through the NTD, including data
on fires, crashes, and related fatalities, injuries, and property damage. Transit
agencies must notify SSOAs of reportable incidents within 2 hours of occurrence
and SSOAs submit to FTA annual reports on these incidents. FTA compiles and

4
    The Secretary's legislative proposal provides the option to establish a safety program for public transportation bus
    systems. Any reference to transit safety in the context of this report refers to rail transit.
5
    The proposed program would not include transit systems that are regulated by the Federal Railroad Administration.
6
    TRACS, comprised of members from transit agencies, SSOAs, labor unions, and other key constituencies, was
    established to analyze transit safety issues and facilitate development of rail transit safety standards.
7
    Transit Cooperative Research Program Report 141: A Methodology for Performance Measurement and Peer
    Comparison in the Public Transportation Industry, Transportation Research Board, 2010.
                                                                                                                                     5


publishes its Rail Safety Statistics report documenting its analysis of the safety
performance of the rail transit industry. This analysis includes an evaluation of
NTD data collected from transit agencies and data in annual reports from SSOAs.

In addition to annual reporting of compiled data, FTA responds to industry,
congressional, and media requests for quantitative and anecdotal safety data. It
also receives additional safety information from stakeholders, such as APTA,
NTSB, and TRACS. The NTD data are available online, but SSOA and transit
agency stakeholders we interviewed indicated that they do not use NTD data to
identify safety concerns and are uncertain how FTA uses the data. SSOA officials
stated that they focus on incident reports from transit agencies. Moreover, transit
agency officials stated that comparative analyses of NTD safety data are not
feasible because transit agencies with operational similarities, such as size or
design, are not grouped for comparison.

                                     Specifically, through the Volpe National
Source: Dallas Area Rapid Transit




                                     Transportation Systems Center, FTA has
                                     assessed its existing data management
                                     activities and its safety and security data
                                     needs to prepare an action plan for transit
                                     safety and security data management. 8
                                     FTA reported that it completed the first
                                     two phases of this assessment and is
                                     working with an advisory committee to
                                     identify data needs. FTA identified key
                                     performance indicators, catalogued NTD
                                     data gaps, and determined that it lacked a
                                     plan and tools to interpret safety priorities
and provide user friendly access to data analysis. Our discussions with transit
agency stakeholders echoed these concerns and indicated that FTA can do more
now to maximize the usefulness of NTD data.

Identifying Data to Develop and Implement Enhanced Transit Safety
Oversight
If FTA takes on an expanded transit safety oversight role, it would need to identify
the data necessary for a comprehensive risk-based approach to safety oversight, as
other Operating Administrations have done. Our prior audit work identified a
number of transit safety data needs FTA would have to address to facilitate a data-
driven, risk-based approach to oversight. For example, in 1999, we reported that
FTA lacked the data needed to identify factors contributing to transit crashes

8
                             The Volpe study included interviews of officials from FTA, Federal Railroad Administration, Department of
                             Homeland Security, and American Public Transportation Association, but not from SSOAs or transit agencies.
                                                                                                                  6


involving rail fixed-guideway crossings. Although FTA reported in 2009 9 the
probable causes for these types of crashes, the causes were identified as
"equipment failure," "workforce behavior," or other broad categories, giving FTA
limited information on actions needed to identify and mitigate risks. GAO reported
in January 2011 10 that data used in compiling this report were unreliable.

In addition, FTA lacks detailed data on the condition of the Nation's rail transit
assets. According to an FTA study, one-third of assets at the seven largest rail
transit agencies―which serve 80 percent of rail transit riders―are nearing or have
exceeded their expected useful life. An estimated $50 billion in rail transit asset
improvements is needed to bring these systems to a state of good repair. The study
noted that FTA would benefit from a National Transit Capital Asset Reporting
System that would ensure regular and consistent reporting of asset conditions
across all urban transit agencies. FTA has taken steps toward improving data on
asset management, such as budgeting for the collection of such data from
stakeholders in its fiscal year 2012 budget proposal. This information could assist
FTA in adding transit asset data as a component of NTD reporting.

The lack of key data presented significant challenges for the Federal Aviation
Administration (FAA) in establishing a risk-based oversight approach for on-
demand operators. 11 FAA lacked the data needed to evaluate the risk associated
with different types of on-demand operations. For example, on-demand operators
typically fly in an environment that poses a number of safety risks. Specifically,
they tend to have short flights, resulting in more takeoffs and landings, the most
dangerous part of a flight. They also operate at altitudes that are vulnerable to
terrain and weather obstacles and fly to and from small airports that do not have
air traffic control towers or emergency equipment. FTA would face similar
challenges in collecting key data given the diverse equipment, infrastructures,
technologies, and operating environments among transit operators.

Collaborating with key stakeholders, such as transit agencies and APTA, would be
critical to identifying and closing safety data gaps. Collaboration was an approach
the Federal Highway Administration (FHWA) adopted to address our January
2009 recommendation that it move toward collecting more detailed data on bridge
conditions. FHWA participated in a task group organized by the American
Association of State Highway Transportation Officials (AASHTO) to develop and
implement a plan to collect more detailed data.



9
     FTA's 2009 Rail Safety Statistics Report.
10
     GAO-11-217R, "FTA Rail Safety Data Reliability," Government Accountability Office, January 31, 2011.
11
     On-demand (Part 135) operators use aircraft configured for 30 or fewer passengers or 7,500 pounds of payload or
     less. Most of these operators fly at the request of their customers. The on-demand industry consists of charter
     passenger flights, medical operations, air tours and cargo operations.
                                                                                                                           7


Ensuring the Quality of Rail Transit Safety Data
Quality data are critical to the successful development and implementation of a
data-driven, risk-based approach to safety oversight, as demonstrated by our audits
of other Department safety data systems. These audits indicated that new practices
would likely be needed to ensure that new transit data systems can support
enhanced safety oversight. FTA would be challenged to ensure that the NTD and
other transit data it uses are complete, accurate, and timely. Other Operating
Administrations faced similar challenges in improving data quality.

For example, significant data quality problems in the Federal Motor Carrier Safety
Administration's (FMCSA) Safety Status Measurement System (SafeStat) limited
FMCSA's ability to identify carriers with safety problems. In 2004, we reported
that SafeStat―which was designed to target motor carriers with poor safety
performance records for oversight―was missing records for at least 38 percent of
truck and bus crashes. In addition, 61 percent of traffic citations issued were
incorrectly coded and 31 percent of available records were reported over 180 days
late. We also reported that this system could not identify carriers with the worst
safety records because the underlying data were incomplete, inaccurate, and
untimely. To improve data reporting, FMCSA conducted state data quality reviews
and implemented improved data quality control measures and action plans.

The Federal Railroad Administration (FRA) has experienced timeliness problems
with rail safety data. Our audit of FRA's oversight of highway-rail grade crossings
found the 60-day requirement for railroad companies to notify the National
Response Center of an incident was too long for FRA to initiate an investigation
and address safety risks involving 115 crossing collisions that resulted in
116 fatalities. Similarly, transit agency officials we interviewed found FTA's
analysis of safety data less useful in identifying risks because it was not timely.

In addition to impeding the identification of high-risk areas, poor quality data may
affect attempts at corrective action following incidents. FHWA identified
significant data errors in its National Bridge Inventory database 12 following the
collapse of the I-35W bridge in Minnesota. While attempting to identify similar
types of bridges, FHWA found that almost one-third of the 756 bridges identified
as similar were not. As a result, FHWA could not effectively target such bridges
for State inspections in the critical weeks following the I-35W bridge failure.




12
     The database includes records on the location, age, condition, and load rating and posting of nearly 600,000 public
     highway bridges nationwide.
                                                                                      8


DEVELOPING AND IMPLEMENTING SAFETY GOALS AND
PERFORMANCE MEASURES
FTA has not established goals, performance measures, and targets that are specific
to its current rail transit safety activities. Even without enhanced authority,
improved information would enable FTA to better assess the impact of its current
safety activities, and identify and share best practices nationwide. If Congress
expands FTA's oversight role, FTA would face challenges in working with States
and transit agencies to develop a uniform set of national performance measures
and processes for tracking and reporting performance progress.

Evaluating the Current Transit Safety Oversight Program
FTA has not established goals, performance measures, and targets that are specific
to its current rail transit safety activities. Instead, FTA identified general safety
outcomes and strategies in its fiscal year 2011 Performance Plan that are intended
to reduce transit-related fatalities and injuries. In addition, the Department's
Annual Performance Report for fiscal year 2010 included a measure for transit
fatalities per 100 million passenger-miles traveled; however, the measure did not
separate rail transit fatalities from the other modes of transit, such as buses or ferry
boats.

Specific and quantifiable performance goals, measures, and targets are necessary
to demonstrate whether a program is fulfilling expectations. FTA's efforts to
monitor progress in completing transit




                                                                                      Source: Metropolitan Transportation Authority
safety tasks identified in its annual
performance plans have been limited—
in part because the planned tasks
change from year to year. As a result,
FTA cannot track progress made over
time in improving transit safety.
Further, FTA's quarterly performance
assessments do not provide meaningful
information on whether tasks and
services provided have a positive impact on transit safety, largely due to FTA's
lack of performance measures. Also, FTA's quarterly assessment reports have not
been timely. For example, as of March 2010, its most recent assessment reported
accomplishments for the fourth quarter of fiscal year 2008.

FTA has been challenged in evaluating the impact of its rail transit safety
activities, in part, because SSOAs directly oversee transit agencies—not FTA.
However, developing separate performance measures would enable FTA to
establish a baseline for rail transit safety, set targets for safety improvements,
analyze safety trends over time, and identify actions to respond timely to negative
                                                                                   9


trends. Clearly defined performance goals and measures would also better position
FTA to take on an enhanced transit safety oversight role.

Establishing Uniform Performance Measures and Assessing
Progress
Under an enhanced oversight role, FTA would need to work closely with States
and transit agencies to adopt a uniform set of national performance measures for
evaluating the effectiveness of the newly established national safety program. This
would be a significant shift in FTA's role. Currently, each transit agency
establishes individual safety goals and objectives in annual system safety program
plans. These plans include safety policies, procedures, goals, and objectives and
describe how the transit agency will implement and manage safety programs. FTA
does not require minimum uniform measures that apply to all transit agencies;
therefore, nationwide analysis of performance progress is difficult. This prevents
FTA from periodically reporting on the effectiveness of its limited oversight
activities on transit safety. If FTA is to successfully evaluate the impact of a new
program on transit safety nationwide, it would be critical that States and transit
agencies periodically track and report to FTA on their safety performance.

Our audit work of other Operating Administrations demonstrates the difficulties
FTA would face in accomplishing this task. For example, in March 2008, we
reported that the National Highway Traffic Safety Administration (NHTSA) was
unable to effectively assess State performance in meeting safety goals. In
response, NHTSA coordinated with the Governors Highway Safety Association to
establish common performance measures to enhance comparability among States,
better track State progress in implementing highway safety grant programs, and
target limited funds to safety programs that result in measurable success.

Our March 2008 report also noted that States did not track and report on their
performance progress, further limiting NHTSA's ability to oversee State safety
programs. States did not project current trends to demonstrate whether they were
on track to meet goals and measures. For example, one State established a goal to
limit highway fatalities but did not project a trend line to show whether it could
meet the goal. Our analysis showed that the State was not on track to meet its goal.

ESTABLISHING NATIONAL RAIL TRANSIT SAFETY STANDARDS
While FTA is legally prohibited from issuing transit safety standards, it is working
with an advisory committee to collect information on safety policies and practices.
Were this barrier removed, establishing national rail transit safety standards would
be difficult due to the diversity of the Nation's transit systems regarding equipment
and infrastructures, technologies, and operating environments. In setting new
standards, FTA would face other key challenges, such as establishing proposed
                                                                                                              10


safety management system requirements and prioritizing the greatest safety risks
for rulemakings.

Collecting Information for Developing New Safety Standards
The Department is working with TRACS, under its current authority, to collect
information for new safety policies and practices, which could be useful in
developing safety standards and national regulations under enhanced authority.
Following legislative authorization, current industry standards and best practices
may be adopted for certain areas. Best practices of other Operating
Administrations could also provide a basis for transit safety requirements. For
example, FHWA's National Bridge Inspection Standards outline safety
requirements for inspection frequency, inspection personnel qualifications, and
data collection. FHWA is in the early stages of developing National Tunnel
Inspection Standards, which may be modeled, in part, after its bridge inspection
standards. However, before new rail transit standards are finalized, transit agencies
could consider using existing FHWA guidelines for inspection, maintenance, and
rehabilitation of rail transit tunnels. Further, the Department could examine the
FHWA and FRA standards for bridge inspection as a model when developing
standards for rail transit bridges.

Our prior work has shown that advisory committees can help agencies resolve
controversial issues, minimize adverse public comments, and shorten the overall
time needed to complete new rules. 13 According to the FRA Administrator and
FAA Manager of Rulemaking, working with advisory committees can take more
up–front planning time, but less time later on when the agency is revising
proposed rules and issuing final rules.

Creating National Rail Transit Safety Standards and Regulations
Under the existing State Safety Oversight program, States set their own rail transit
safety standards and review their transit agencies' safety practices. According to
the Secretary's legislative proposal, many oversight agencies lack enforcement
authority and the current approach has led to inconsistent practices, limited
standards, and marginal effectiveness. The Secretary's proposal would allow the
establishment and enforcement of minimum transit safety standards nationwide.
The Department would require State transit agencies to adopt program standards
based on safety management system (SMS) principles 14—an approach that could
encourage the development of comprehensive safety procedures, practices, and
policies that fit each transit agency's unique operation. The SMS approach also


13
     According to FTA, TRACS will be involved in the rulemaking process, should enhanced authority be granted.
14
     Implementing a safety management system involves taking a formal, top-down business-like approach to managing
     safety risk.
                                                                                           11


            strongly emphasizes developing an organizational culture that supports a high
            level of safety performance.

            If the Department pursues an SMS approach under enhanced authority, FTA
            would need to set clear expectations for transit agencies' implementation of SMS
            components. According to FTA, it is working through TRACS to identify such
            components. Our prior audit work has shown that vague guidance and regulations
            on how to structure safety-related systems can undermine the Department's efforts
            to improve safety. For example, following the January 2000 crash of Alaska
            Airlines Flight 261, FAA determined that Alaska Airlines' Continuing Analysis
            and Surveillance System (CASS)—a monitoring system carriers are required to
            design and maintain—was ineffective for analyzing the performance and
            effectiveness of the carrier's maintenance program. We found that ambiguous
            guidance on what an effective CASS should include contributed to the system's
            ineffectiveness.

                                                       Developing SMS requirements in a
Source: Bay Area Rapid Transit




                                                       timely manner could also pose a
                                                       challenge. Although TRACS is
                                                       collecting information on         SMS
                                                       principles and components, the
                                                       rulemaking process can be difficult and
                                                       time-consuming. Coordinating rules
                                                       with other agencies, data problems, the
                                                       need for further studies or analyses to
                                                       improve      data     integrity,    and
                                                       unanticipated issues requiring further
                                                       analysis can extend the rulemaking
            process, which can take over 3 years. Even when Congress sets a statutory
            deadline to issue a rule, disagreement on the content of a proposed rule can cause
            significant delays. For example, in 2006 Congress directed FMCSA to issue new
            regulations for the commercial driver's license program within 18 months. These
            regulations were designed, in part, to implement recommendations we made in
            audit reports and correspondence going back to 2002. However, despite the
            congressional mandate, FMCSA did not issue the regulations until May 2011.

            Department leadership can assist transit safety rulemaking by committing to
            timeliness on rulemakings prioritized by FTA. We reported that the overriding
            reason that average rulemaking time decreased by several months between 1999
            and 2003 was high-level management emphasis. For example, the Secretary took
            an active interest in improving the rulemaking process and issued a memorandum
            to agency administrators reminding them of the importance of timely rulemakings.
                                                                                                                 12


Based on our stakeholder interviews, prior work, and NTSB recommendations,
potential higher risk transit safety areas that could warrant particular focus include
train operator certification, hours-of-service, medical fitness, and rail car
crashworthiness.

• Train Operator Certification. Currently, transit agencies have different
  certification requirements for rail transit train operators. One transit agency
  official noted that licensing similar to the commercial driver's license used by
  the motor carrier industry could enhance safety. Another official suggested that
  FRA's locomotive engineer certification—which considers driving record,
  prior safety conduct and related work record, as well as knowledge and skill
  testing—could be used as a basis for train operator certification.

• Hours of Service. In March 2006, NTSB recommended FTA require transit
  agencies to ensure train operators obtain at least 8 hours of uninterrupted sleep
  between shifts. Some state and transit agency stakeholders agree that national
  hours of service standards should be established. 15 However, both State and
  transit agency respondents to FTA's 2006 fatigue management survey raised
  concern with the potential cost of an hours-of-service rule. Opposition to
  implementing standards can be significant. For example, FMCSA's hours–of–
  service rules have been subjected to legal challenges since 2003, and a new
  rule proposed in 2010 was not completed until December 27, 2011.

• Operator Medical Fitness. Transit safety stakeholders identified operator
  medical fitness for potential regulation, and NTSB has cited sleep disorder as a
  medical condition and possible cause in passenger rail and transit crashes. Our
  audit work on commercial drivers indicates that operator medical fitness
  regulations can play a safety role. For example, we recommended that FMCSA
  expedite a medical certificate rulemaking―which was necessary to help
  prevent unqualified commercial drivers from "shopping" for a physician to
  certify their medical fitness. In addition, FRA is developing medical criteria
  and protocols to assess the medical fitness of safety-critical railroad
  employees.

• Rail Car Crashworthiness. NTSB recommended minimum rail car
  crashworthiness standards and eliminating cars that cannot be modified to meet
  standards. State and transit agency stakeholders cited concerns about heavier
  cars, including strain on infrastructure, power consumption, and cost. 16 The
  Secretary's legislative proposal would require that costs and benefits be
  considered before issuing regulations, and states that NTSB recommendations
15
     According to APTA, hours-of-service rules govern the number of hours a train operator may work and generally
     include mandatory rest periods.
16
     At the time of our review, WMATA estimated a cost of $835 million to replace 1000-series rail cars with 300 more
     crashworthy rail cars.
                                                                                    13


   should be considered to the extent practicable. Transit agencies with less
   crashworthy rail cars could address safety concerns by fully complying with
   automatic train control (ATC) safety standards as they incrementally replace
   rail cars. Minimum ATC safety standards for applicable transit systems could
   help reduce ATC component problems that compromise safety. NTSB cited
   track circuit failure as a key cause of the fatal WMATA crash in 2009.

Collaborating with other Operating Administrations with safety regulatory
authority could help expedite efforts to develop and implement minimum safety
standards and the proposed safety management system. However, it is important to
recognize that stakeholders can find it difficult to reach consensus and may not
expeditiously resolve all regulatory questions. For example, FAA formed a
committee of aviation stakeholders to review on-demand operator regulations.
While a committee subgroup noted that flight crews having sufficient rest prior to
flights is an issue for on-demand operators, they were unable to reach a consensus
on a specific flight duty and rest recommendation to FAA.

Ensuring Periodic Reviews and Updates of Rail Transit Safety
Standards and Regulations
Ongoing assessments of new regulations would be critical to ensuring that rail
transit standards remain relevant and reflect the current state of the Nation's transit
systems. Without regular reviews and revisions, FTA would risk monitoring and
enforcing standards that are out-of-date or insufficient to address safety risks that
emerge over time. For example, in July 2009, we reported that many provisions of
FAA's regulations for on-demand operators had not been updated since
1978―despite significant changes in the industry. In addition, FAA had not
implemented recommendations that its rulemaking committee made to strengthen
the regulations or addressed 16 NTSB recommendations, some of which were in
line with the committee's recommendations.

CONDUCTING ENHANCED OVERSIGHT AND ENFORCEMENT
If new national standards and regulations are established, ensuring they are carried
out would require FTA to develop new organizational structures and systems for
oversight and enforcement. Under the Secretary's legislative proposal, FTA would
have direct responsibility for rail transit safety―creating a need to consider
organizational placement and assess workforce and training requirements. In
addition, it would be critical to develop a data-driven, risk-based oversight system
and establish criteria and guidance for assessing and enforcing compliance with
safety standards.
                                                                                    14


Addressing Organizational Placement and Workforce Issues
Under current law, FTA is responsible primarily for administering billions of
dollars annually in infrastructure investment grants, with few staff to provide
guidance to SSOAs. Under the Secretary's legislative proposal, FTA's transit
safety role would be expanded to include direct oversight and enforcement of the
national safety program. FTA has developed a strategic plan for reorganizing the
Office of Safety and Security if it receives enhanced safety oversight authority.
However, to meet this expanded role, FTA would likely require additional skills
and expertise that it currently lacks.

The Department faced a similar challenge regarding FHWA's oversight of large
truck and bus safety. In September 1999, the Inspector General testified that the
Office of Motor Carriers' safety mission was eclipsed by FHWA's predominant
mission, that is, investing billions of dollars annually in highway infrastructure
projects. In January 2000, Congress addressed this organizational concern by
separating the Office of Motor Carriers from FHWA and creating FMCSA.

FTA's 2011 budget request called for establishing a national safety program
executive who would report to the FTA Administrator. The request estimates that
$30 million would be needed to fund on-site spot inspections and audits and to set
up FTA's expanded safety office. To ensure success, the authority and
responsibilities of safety personnel must be clearly defined. As specific provisions
of authority are finalized, continued assessments would be needed to determine
staffing levels; identify the knowledge, skills, and abilities needed; develop
position descriptions; and consider options for obtaining required resources, such
as direct hiring, contracting, or re-training current staff.

The value of staffing assessments


                                                                                Photograph by Larry Levine
                                                                                Source: Washington Metropolitan Area Transit Authority
is     demonstrated       by      the
Department's       experience      in
meeting the demands of the
American         Recovery        and
Reinvestment Act (ARRA) of
2009. To award grants for its new
high-speed rail program under
ARRA, FRA used staff detailed
from         other         Operating
Administrations. Despite these
actions, FRA attributed delays in
awarding these grants, in part, to
insufficient staff and technical capacity to manage the program. We also reported
that other Operating Administrations had not hired staff with the expertise needed
                                                                                                                      15


for enhanced oversight, as called for by ARRA and Office of Management and
Budget requirements.

Effective deployment of staff is also important. Our work on the North American
Free Trade Agreement's cross-border trucking provisions demonstrated the risks of
an insufficient inspection presence. We found that trucks entering the United
States at partially staffed crossings were more likely to have safety problems, as
evidenced by their greater out-of-service rates compared with trucks entering the
country at fully staffed crossings. 17

Developing a Data-Driven, Risk-Based Approach to Oversight
A data-driven, risk-based approach—one that uses information to identify and
prioritize nationwide risks and systematically target higher priority risks for
remediation—would be necessary to ensure prudent use of limited oversight and
enforcement resources. The Department's intention to require that transit agencies
adopt such a safety program would meet the need for data-driven, risk-based
oversight, but experience shows that adopting such an approach is difficult.

FAA's experience in implementing the Air Transportation Oversight System
(ATOS) demonstrates the complexity of developing data-driven, risk-based
oversight. ATOS was designed to analyze and prioritize safety risks identified
during inspections of air carrier systems. We found that this approach is
essentially sound. However, a number of actions were needed to realize the
system's benefits. For example, in 2002 and 2005, we reported that FAA needed to
strengthen its oversight to ensure consistent implementation of ATOS in the field.
In 2008, we reported that FAA did not track field office inspections and alert the
local, regional, and Headquarters offices to overdue inspections. In 2010, we
found that FAA's ATOS inspections were still untimely, even after reducing the
number of required inspections. The lack of timely inspections, combined with a
greater need for inspector training in using the system, hindered FAA's ability to
effectively target inspector resources to the areas of greatest need.

FMCSA was similarly challenged to implement SafeStat, which used an algorithm
to rank large truck and bus motor carrier risks using data on crashes, drivers,
vehicles, and safety management practices. We reported in 2004 that FMCSA did
not use standard model development tools such as weighting and normalization to
determine the relative importance or value of indicators developed for the SafeStat
model. To address our concerns, FMCSA hired a contractor to revalidate SafeStat.
In December 2010, FMCSA implemented the Safety Measurement System, a
component of its Compliance Safety Accountability program, to replace SafeStat
and address limitations in how it measures safety.

17
     The out-of-service rate is the percentage of trucks removed from service because of serious safety violations.
                                                                                16


FTA's efforts to work with TRACS in collecting information on safety
management system principles and components could be useful in the
development of a data-driven, risk-based oversight and enforcement approach.
However, several key tasks remain. Specifically, FTA would need to identify and
collect data on the most significant safety risks; develop a valid oversight model
that identifies safety elements for assessment and uses accepted statistical tools
such as weighting, regression analysis, and normalization; and periodically refine
its oversight model as needed to ensure the most effective safety program.

Ensuring Effective Oversight and Enforcement of New Standards and
Regulations
FTA's thorough oversight and enforcement would be needed to ensure states'
compliance with new transit safety standards it may establish under an enhanced
oversight role. Our work has shown that Operating Administrations have faced the
challenge of implementing effective oversight and enforcement—due in part to a
lack of clear and comprehensive criteria and guidance. For example, in 2010, we
reported that due to a lack of criteria and guidance, FHWA bridge engineers
judged States to be substantially compliant with National Bridge Inspection
Standards, despite deficiencies that could pose serious risks to public safety. In
one case, a State failed to close 96 bridges as required.

We found similar weaknesses at FAA. Between 2005 and 2007, FAA did not
perform required routine oversight of American Airlines' CASS and reliability
programs—key systems for monitoring aircraft maintenance. FAA reviewed the
carrier's policies and procedures governing the systems, but did not determine
whether the carrier actually followed them. In April 2009, NTSB determined that
the CASS failed to detect repeated maintenance discrepancies, which contributed
to the September 2007 in-flight engine fire on an American Airlines aircraft.

Various options exist for promoting compliance, such as funding incentives,
withholding grant funds, and imposing civil penalties. Funding incentives
encourage compliance with regulations, standards, and other initiatives. For
example, FMCSA funded incentive grants to states that improved the quality of
safety data. For rail transit safety, Federal funding could serve as a significant
incentive as States currently devote very limited resources for oversight. With the
exception of California, State staffing levels average less than one FTE employee.

Alternatively, if FTA is given a direct role in overseeing rail transit safety as
proposed by the Secretary, its options would include withholding funding or
imposing civil penalties for noncompliance with safety regulations. In using these
tools, however, FTA should consider the potential for service reductions or higher
fares if States have difficulty covering the additional costs resulting from
withholding funds or imposing civil penalties. This risk is mitigated if safety
                                                                                 17


enforcement guidance clearly defines the situations that call for withholding funds
or imposing civil penalties. We reported in January 2010 that FHWA's lack of
clear and comprehensive guidance defining procedures to enforce compliance with
bridge inspection standards led to inconsistencies in enforcement activities and
delays in States' remediation of deficiencies.

CONCLUSION
While rail transit is relatively safe, catastrophic incidents such as the WMATA
crash in June 2009 have raised significant concerns about the effectiveness of rail
transit safety oversight. In response to those concerns, the Secretary proposed
legislation that would expand and enhance the Federal role in the oversight of rail
transit safety. The nature and scope of any future enhancements to FTA's oversight
authority would depend on whether Congress enacts authorizing legislation.
Whatever the future decision, the Department has initiatives underway to enhance
transit safety under current authority, such as establishing TRACS to analyze
transit safety issues. However, sustained action is needed within FTA's current
authority to improve rail transit safety activities related to new and increased use
of safety data. Additionally, if Congress enacts future enhancements, consideration
of the key challenges we identified in this report could help FTA avoid difficulties
that other Operating Administrations experienced in standing up and
implementing nationwide safety programs.

RECOMMENDATIONS
We recommend that the FTA Administrator identify actions taken or planned to:

1. Work with the Volpe National Transportation Systems Center to complete
   FTA's assessment of existing data management activities and safety data needs.

2. Consult with stakeholders to identify gaps in NTD data and opportunities,
   under its current authority, to improve the NTD's usefulness to the transit
   industry.

3. Develop an updated performance plan that identifies clear and specific rail
   transit safety performance measures that align with the Department's strategic
   goals and with FTA's rail transit safety activities.

4. Assess FTA's progress in meeting the rail transit safety performance measures
   on an annual basis and produce a report summarizing results.
                                                                                    18


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FTA our draft report on October 3, 2011, and received its response
on December 16, 2011. FTA's response is included in its entirety as an appendix to
this report. We made technical clarifications in this final report, where appropriate,
based on FTA's input to the draft report. FTA fully concurred with
recommendations 1 and 2 and partially concurred with recommendations 3 and 4.

For recommendations 1 and 2, we consider FTA's reported actions taken to be
sufficient, and therefore, consider these recommendations resolved but open
pending receipt of documentation supporting the actions taken.

For recommendations 3 and 4, FTA stated that it would evaluate the need for
improved performance information on rail transit safety, but only if Congress
enacts legislation authorizing an enhanced safety oversight role for FTA. FTA
further stated that until such time, its performance measures and reporting
processes are sufficient. We recognize that significant expansions to existing
performance measures and reporting mechanisms may not be appropriate at this
time because of FTA's limited authority and resources. However, in our view,
FTA's current authority allows FTA to at least separate rail transit fatalities and
injuries from other modes of transit in the Department's Annual Performance
Report to provide a baseline for evaluating its current rail transit safety activities.
Incorporating a new rail transit-specific measure into this existing annual report
would meet the intent of recommendations 3 and 4. Accordingly, we request that
FTA reconsider its position in regards to recommendations 3 and 4.

ACTIONS REQUIRED
In accordance with follow-up provisions in Department of Transportation
Order 8000.1C, we request that FTA provide information and documentation
demonstrating actions taken to implement recommendations 1 and 2. Further, we
request that FTA reconsider its response to recommendations 3 and 4, based on the
additional explanation provided in our final report. We request that FTA provide
this additional documentation and response within 30 days. We appreciate the
courtesies and cooperation of FTA representatives during this audit. If you have
questions concerning this report, please call Joseph W. Comé, Assistant Inspector
General for Highway and Transit Audits, at (202) 366-5630 or Kerry R. Barras,
Program Director, at (817) 978-3318.

                                          #
cc: Audit Liaison, FTA
    Audit Liaison, OST
                                                                                 19



EXHIBIT A. REPORTS, TESTIMONIES, AND OTHER DOCUMENTS
REVIEWED

  •   2010 National State of Good Repair Assessment, Federal Transit Administration,
      U.S. Department of Transportation, June 2010.
  •   State Safety Oversight Program for Rail Fixed-Guideway Systems, Report
      Number TR-1999-071, Office of Inspector General, U.S. Department of
      Transportation, March 12, 1999.
  •   2009 Rail Safety Statistics Report, Federal          Transit   Administration,
      U.S. Department of Transportation, March 2010.
  •   Rail Modernization Study, Report to Congress, Federal Transit Administration,
      U.S. Department of Transportation, April 2009.
  •   Surface Transportation Safety: Motor Carrier Safety and Related Matters,
      Testimony Number TR-1999-055, Office of Inspector General, U.S. Department
      of Transportation, February 23, 1999.
  •   Audit of Oversight of Highway Rail Grade Crossing Accident Reporting,
      Investigations, and Safety Regulations, Report Number MH-2006-016, Office of
      Inspector General, U.S. Department of Transportation, November 28, 2005.
  •   National Bridge Inspection Program: Assessment of FHWA's Implementation of
      Data-Driven, Risk-Based Oversight, Report Number MH-2009-013, Office of
      Inspector General, U.S. Department of Transportation, January 12, 2009.
  •   Best Practices for Improving Oversight of State Highway Safety Programs,
      Report Number MH-2008-046, Office of Inspector General, U.S. Department of
      Transportation, March 25, 2008.
  •   Effectiveness    of    Federal    Drunk Driving Programs, Testimony
      Number CC-2008-013, Office of Inspector General, U.S. Department of
      Transportation, October 25, 2007.
  •   GAO-10-730, "Transit Rail: Potential Rail Car Cost-Saving Strategies Exist,"
      Government Accountability Office, June 2010.
  •   Federal Highway Administration: National Tunnel Inspection Standards Notice of
      Proposed Rulemaking, 75 Federal Register 140, July 22, 2010.
  •   The Department of Transportation's Rulemaking Process, Report
      Number MH-2000-109, Office of Inspector General, U.S. Department of
      Transportation, July 20, 2000.
  •   Hearing on Public Transit Safety: Examining the Federal Role, Statement of the
      Honorable Ray LaHood, Secretary of Transportation, Before the Committee on
      Transportation and Infrastructure, Subcommittee on Highways and Transit, U.S.
      House of Representatives, December 8, 2009.



Exhibit A. Report s, Testimonies, and O ther Document s Review ed
                                                                                   20


  •   Oversight of Aircraft Maintenance, Continuing Analysis and Surveillance
      Systems, Report Number AV-2002-066, Office of Inspector General, U.S.
      Department of Transportation, December 12, 2001.
  •   Audit of DOT's Rulemaking Process and Tracking System,                   Report
      Number SC-2004-035, Office of Inspector General, March 2, 2004.
  •   Follow-Up Audit of DOT's Rulemaking Process and Tracking System, Report
      Number SC-2005-031, Office of Inspector General, U.S. Department of
      Transportation, December 21, 2004.
  •   GAO-09-205, Federal Rulemaking: Improvements Needed to Monitoring and
      Evaluation of Rules Development as Well as to the Transparency of OMB
      Regulatory Reviews, Government Accountability Office, April 2009.
  •   Review of the Office of Defects Investigation, Report Number MH-2002-071,
      Office of Inspector General, U.S. Department of Transportation, January 3, 2002.
  •   National Transportation Safety Board Accident Report: Collision Between Two
      Washington Metropolitan Transit Authority Trains at the Woodley Park-
      Zoo/Adams Morgan Station in Washington, D.C. November 3, 2004
      (NTSB/RAR-06/01), Adopted March 23, 2006.
  •   Fatigue Management Survey Results: State Safety Oversight and Rail Transit
      Agencies Affected by 49 CFR Part 659, Federal Transit Administration, Office of
      Safety and Security, U.S. Department of Transportation, September 2006.
  •   DOT's FY 2001 Top Management Challenges, Report Number PT-2001-017,
      Office of Inspector General, U.S. Department of Transportation, January 18,
      2001.
  •   Significant Improvements in Motor Carrier Safety Program but Loopholes for
      Repeat Violators Need Closing, Report Number MH-2006-046, Office of
      Inspector General, U.S. Department of Transportation, April 21, 2006.
  •   On-Demand Operators Have Less Stringent Safety Requirements and Oversight
      than Large Commercial Air Carriers, Report Number AV-2009-066, Office of
      Inspector General, U.S. Department of Transportation, July 13, 2009.
  •   DOT's FY 2011 Top Management Challenges, Report Number PT-2011-010,
      Office of Inspector General, U.S. Department of Transportation,
      November 15, 2010.
  •   S. 1501: the Motor Carrier Safety Improvement Act of 1999, Report
      Number TR-1000-134, Office of Inspector General, U.S. Department of
      Transportation, September 29, 1999.
  •   FY 2011 Federal Transit Administration Budget Estimates, Federal Transit
      Administration, U.S. Department of Transportation, Submitted for use of the
      Committees on Appropriations.
  •   DOT's Implementation of the American Recovery and Reinvestment Act:
      Continued Management Attention is Needed to Address Oversight


Exhibit A. Report s, Testimonies, and O ther Document s Review ed
                                                                                 21


       Vulnerabilities, Report Number MH-2010-024, Office of Inspector General, U.S.
       Department of Transportation, November 30, 2009.
   •   Interim Report on Status of Implementing the North American Free Trade
       Agreement's Cross-Border Trucking Provisions, Report Number MH-2001-059,
       Office of Inspector General, U.S. Department of Transportation, May 8, 2001.
   •   Air Transportation Oversight System, Report Number AV-2002-088, Office of
       Inspector General, U.S. Department of Transportation, April 8, 2002.
   •   Safety Oversight of an Air Carrier Industry in Transition, Report
       Number AV-2005-062, Office of Inspector General, U.S. Department of
       Transportation, June 3, 2005.
   •   Review of FAA's Oversight of Airlines and Use of Regulatory Partnership
       Programs, Report Number AV-2008-057, Office of Inspector General,
       U.S. Department of Transportation, June 30, 2008.
   •   FAA Needs to Improve Risk Assessment Processes for its Air Transportation
       Oversight System, Report Number AV-2011-026, Office of Inspector General,
       U.S. Department of Transportation, December 16, 2010.
   •   SafeStat, Motor Carrier Safety Status Measurement System, Methodology:
       Version 8.6, Federal Motor Carrier Safety Administration, U.S. Department of
       Transportation, January 2004.
   •   Improvements Needed in the Motor Carrier Safety Status Measurement System,
       Report Number MH-2004-034, Office of Inspector General, U.S. Department of
       Transportation, February 13, 2004.
   •   Final Report on FHWA Oversight of the Highway Bridge Program and National
       Bridge Inspection Program, Report Number MH-2010-039, Office of Inspector
       General, U.S. Department of Transportation, January 14, 2010.
   •   FAA's Oversight of American Airlines' Maintenance Programs, Report
       Number AV-2010-042, Office of Inspector General, U.S. Department of
       Transportation, February 16, 2010.
   •   GAO-11-217R, "FTA Rail Safety Data Reliability," Government Accountability
       Office, January 31, 2011.


OIG reports and testimonies are available on our website: www.oig.dot.gov.




Exhibit A. Report s, Testimonies, and O ther Document s Review ed
                                                                               22


EXHIBIT B. OBJECTIVE, SCOPE, AND METHODOLOGY
Our audit objective was to identify future challenges FTA would likely face in
developing and implementing enhanced rail transit safety oversight. We also
identified actions FTA could take under its current authority to improve safety
oversight. To answer our objective, we conducted research and interviewed a
broad range of industry stakeholders to identify and discuss challenges and risks
associated with the proposed enhanced oversight program. We made site visits and
held teleconferences with officials representing the following organizations.

   • Federal Transit Administration Headquarters in Washington, D.C.
   • Federal Transit Administration regional offices in New York, New York;
     Fort Worth, Texas; and San Francisco, California
   • State Safety Oversight Agencies in New York, Texas, and California
   • Tri-State Oversight Committee, SSOA for the Washington Metropolitan
     Area Transit Authority
   • Transit agencies, including Dallas Area Rapid Transit, Bay Area Rapid
     Transit, New York City Metropolitan Transportation Authority, and
     Washington Metropolitan Area Transit Authority
   • National Transportation Safety Board
   • American Public Transportation Association
   • Federal Motor Carrier Safety Administration

In addition, we attended the Department's Transportation Safety Institute training
course on Transit Rail System Safety. While at the training site in Denver,
Colorado, we discussed transit safety challenges with other training attendees
representing Federal, State, and transit system stakeholders.

We reviewed prior OIG audit reports and testimonies that focused on data quality
and reporting, program goals and performance measures, development of safety
standards, and oversight and enforcement. We also reviewed relevant work of the
Government Accountability Office and the National Transportation Safety Board.

We conducted our work from January 2010 through October 2011 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




Exhibit B. Objecti ve, Scope, and Methodolog y
                                                                                                          23



EXHIBIT C. CHALLENGES AND PRIORITY ACTIONS FOR
ENHANCED RAIL TRANSIT SAFETY
Phase                   Challenge                                Priority Actions
Collecting Data For Effective Safety Oversight
Current Authority       Maximize the usefulness of current rail Consult stakeholders on safety data
                        transit safety data                     improvements and usefulness; complete
                                                                assessment of existing data
                                                                management activities and data needs
Program Development     Identify data needed to develop and      Conduct assessment of data needs and
                        implement enhanced oversight             start collecting needed data
Program                 Ensure quality of rail transit safety    Implement new practices as needed to
Implementation          data                                     collect complete, accurate, and timely
                                                                 data
Developing and Implementing Safety Goals and Performance Measures
Current Authority       Evaluate current transit safety          Update performance plan with measures
                        activities and key strategies            and targets; report on impact of transit
                                                                 safety activities and strategies
Program Development     Establish uniform measures with          Collect data on state and transit agency
                        states and transit agencies              implementation of key strategies

Program                 Assess performance progress              Analyze trend projections; report on
Implementation                                                   impact of safety oversight; update goals

Establishing National Rail Transit Safety Standards
Current Authority       Collect information for developing new   None
                        safety standards
Program Development     Create national rail transit safety      Establish requirements for proposed
                        standards and regulations                safety management system and issue
                                                                 guidance for rail transit agencies; enlist
                                                                 leadership commitment for timely
                                                                 rulemaking; identify and prioritize high
                                                                 risk safety areas and develop rules
Program                 Ensure periodic reviews and updates      Continue rulemaking process to establish
Implementation          of safety standards and regulations      new and update existing safety
                                                                 standards and regulations
Conducting Enhanced Oversight and Enforcement
Current Authority       none                                     None
Program Development     Address organizational placement and Develop measures to ensure
                        workforce issues; develop enhanced   organizational independence and
                        data-driven, risk-based oversight    effectiveness; assess human capital
                                                             requirements for enhanced oversight;
                                                             identify and prioritize nationwide transit
                                                             safety risks, and target mitigation
                                                             strategies to the highest priority risks
Program                 Follow through to ensure effective       Develop criteria for assessing transit
Implementation          oversight and enforcement of new         agencies' compliance with Federal
                        standards and regulations                standards and guidance defining actions
                                                                 to address noncompliance




Exhibit C. Challenges and Priorit y Acti ons for Enhanced Rail Transit
Safet y
                                                                                               24



EXHIBIT D. KEY MANAGEMENT QUESTIONS BASED ON
IDENTIFIED CHALLENGES
Challenge          Key Management Questions

Collecting data    1a. Is the Department maximizing the use of current data to improve
for effective      transit safety?
safety oversight
                   1b. Is the Department sufficiently consulting with stakeholders to fully
                   utilize current data?

                   1c. Has the Department identified the data elements needed to
                   implement enhanced risk-based safety oversight?

                   1d. Are procedures in place to ensure that essential data elements are
                   defined in a uniform manner and provided timely, completely, and
                   accurately?
Developing and     2a. Has the Department developed uniform performance measures for
implementing       application across transit agencies?
safety goals and
performance        2b. Will these measures allow the Department to establish baselines for
measures           transit safety against which progress can be measured?

                   2c. Are procedures in place to ensure the Department can evaluate
                   nationwide progress?
Establishing       3a. Has the Department developed a plan for prioritizing standards and
national rail      addressing past problems with delays in issuing new standards?
transit safety
standards          3b. Has the Department made sufficient use of advisory committees in
                   the development of standards?

                   3c. Has the Department developed a process to regularly assess
                   standards to ensure that necessary updates occur?
Conducting         4a. Has the Department addressed key organizational and workforce
enhanced safety    issues necessary to foster enhanced oversight and enforcement?
oversight and
enforcement        4b. Has the Department selected appropriate and statistically valid tools
                   or models to perform data-driven risk-based oversight?

                   4c. Does the Department have the systems in place to successfully
                   implement the tools and models selected?

                   4d. Has the Department identified tools for promoting compliance that
                   strike the proper balance between incentives, withholding funding, and
                   civil penalties?




Exhibit D. Key Management Questions Based on Identified
Challenges
                                                                 25



EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Kerry R. Barras                         Program Director

Linda G. Morgan                         Project Manager

Anthony V. Saraco                       Senior Auditor

Stuart I. Weibel                        Senior Auditor

Anette Soto                             Analyst

Luke A. Brennan                         Analyst

Rodolfo E. Pérez                        Engineer Advisor

Anne-Marie Joseph                       Senior Engineer

Seth Kaufman                            Senior Counsel

Harriet Lambert                         Writer-Editor

Karen Sloan                             Communications Officer




Exhibit E. Major Contributors to This Report
                                                                                                 26



 APPENDIX. AGENCY COMMENTS

                                                 Memorandum
 U.S. Department
 of Transportation
 Federal Transit
 Administration


Subject:   ACTION: Management Response to OIG Draft Report,           Date:    December 16, 2011
           “Challenges to Improving Oversight of Rail Transit
           Safety and Implementing an Enhanced Federal Role”

  From:    Peter Rogoff, Administrator                             Reply to    Angela Dluger
           Federal Transit Administration                          Attn. of:   (202) 366-5303

    To:    Calvin L. Scovel III
           Inspector General

 The Federal Transit Administration (FTA) agrees with the Office of Inspector General (OIG)
 draft report finding that we lack sufficient statutory authority to issue and enforce national rail
 transit safety standards. FTA has initiatives both completed and under way to enhance rail
 transit safety under its current authority. However the single most important rail transit safety
 priority for the Department is providing FTA with the statutory authority necessary to implement
 a national comprehensive safety management system (SMS) that is data-driven, risk-based, and
 offers a consistent safety foundation for rail transit systems. As a result, we differ with some of
 the OIG draft report’s recommendations to develop additional performance measures or
 reporting mechanisms under FTA’s current legal authority. Instead, FTA has focused its limited
 resources and authority on other actions, described below, which offer greater potential safety
 benefit, as it continues to pursue authority to establish a consistent approach to safety
 fundamentals for rail systems across the U.S.

 Why FTA Needs Regulatory Oversight Authority

 The FTA, which finances the majority of the capital expenditures for rail transit systems
 nationwide, has been prohibited by law for 47 years from directly overseeing transit safety. As a
 result, the FTA is annually awarding funding to transit providers across the Nation with no direct
 way to ensure this investment is administered within a consistent and appropriate safety
 approach for rail transit passengers and workers. Instead, rail transit safety oversight is left
 almost entirely to a patchwork of 27 state agencies with inconsistent standards, as well as some
 with inadequate powers and insufficient staffing. Today, more than 14 million passengers use
 the nation’s rail transit systems every weekday — eight times more passengers than commuter
 railroads and Amtrak, and over six times more passengers than the airlines. However, as rail


 Appendix. Agency Comments
                                                                                                  27


transit ridership continues to grow, this hands-off approach to providing consistent standards has
increasingly come into question.

Concerns have been cited about current rail transit safety regime by the National Transportation
Safety Board (NTSB) and others. As far back as 1971, the NTSB issued a series of
recommendations urging the government to strengthen all aspects of safety among transit
agencies. Again in 1978 the NTSB recommended that the Department develop oversight
capabilities to ensure that safety is regulated and enforced on all of the Nation’s rail transit
systems. The NTSB made similar findings from investigations involving the 2009 Washington
Metro rail accident that killed nine people and the 2008 Miami International Airport people
mover accident. In the case of Miami, NTSB’s November 2011 report cited serious oversight
lapses and a lack of Federal oversight authority as contributing factors.

While FTA is taking action, to the full extent of its existing statutory authority, we continue to
maintain that FTA requires enhanced statutory authority to establish consistent, meaningful
policies and procedures and a better means to ensure that standards are met on every system.
This consistent national oversight framework would establish a basic foundation from which rail
transit systems could build upon as necessary to meet system-specific requirements.

FTA is Taking Action Under Current Authority

Consistent with its limited authority, FTA has ongoing efforts to improve rail transit safety
oversight and is taking steps now to prepare for enhanced oversight.

TRACS. FTA’s current focus is to raise awareness on safety incidents of the greatest concern
and to develop the necessary SMS framework as guided by the Transit Rail Advisory Committee
for Safety (TRACS). The Department established TRACS to provide information, advice, and
recommendations to the Secretary of Transportation and the FTA Administrator on all matters
relating to the safety of U.S. public transportation systems and activities. For example, FTA,
along with the TRACS committee, are reviewing various models of voluntary non-punitive
close-call employee accident reporting systems in order to develop recommendations to assist the
FTA with implementing a pilot program for the transit industry. This effort is an essential
component of an effective data-driven SMS and would generate real-time data to assist with
identifying and remediating potential hazards.

Outreach. FTA conducts a variety of key safety activities, such as workshops, roundtables,
National Transit Database (NTD) safety and security module training and safety newsletters.
These activities target the most frequent causes of rail transit accidents; focus technical
assistance resources to address high-risk causal factors; and spotlight industry activities and
practices to accelerate industry awareness in order to mitigate the largest risks.

Data Management. FTA has completed numerous actions to improve transit safety data and has
several major efforts underway that will improve the availability and quality of data. FTA
validated historic industry data where possible, has improved the validation checks for rail State
Safety Oversight Agency (SSOA) data annually for recent reporting years and reviews and
analyzes data continuously to identify gaps and to monitor the quality of safety data it receives


Appendix. Agency Comments
                                                                                                28


from the industry. FTA is working to integrate the NTD and rail SSOA reporting processes
based on SMS principles.

OIG RECOMMENDATIONS AND FTA RESPONSE

Recommendation 1: Work with the Volpe National Transportation Systems Center (Volpe) to
complete FTA’s assessment of existing data management activities and safety data needs.

Response: Concur. FTA completed the recommended action. FTA has assessed its existing
data management activities and safety data needs. Two reports document these activities. The
first, titled “Safety and Security Data Management – Assessment Report,” was completed on
August 31, 2009. It evaluated internal processes and developed a comprehensive safety and
security data inventory. The second, titled “Safety and Security Data Needs Assessment Report -
FTA’s Safety and Security Data Management Program Initiative,” was completed on August 26,
2011. It provided a needs assessment of FTA’s safety data quality, needs and strategies.

Recommendation 2: Consult with stakeholders to identify gaps in NTD data and opportunities,
under its current authority, to improve NTD’s usefulness to the transit industry.

Response: Concur. FTA completed the recommended action. FTA’s commitment to
stakeholder outreach and obtaining industry input is exemplified by the advisory role of TRACS.
TRACS has considered safety data gaps and opportunities through its work groups. As a result,
TRACS established and tasked a workgroup with providing consensus advice to FTA on
proposed models and strategies for transit systems to implement a voluntary non-punitive
reporting system for close-call/near-miss incidents. Two other FTA efforts address this
recommendation: (1) the needs assessment report completed in August 2011 contains a catalog
of NTD data gaps and opportunities and (2) stakeholder outreach and public comments will
inform FTA’s efforts to add transit asset data collection as a component of NTD reporting.

Recommendation 3: Develop an updated performance plan that identifies clear and specific rail
safety performance measures that align with the Department’s strategic goals and with FTA’s
rail transit safety activities.

Response: Concur in part. As described above, the Department believes the most
fundamentally important action to improve rail transit safety at the Federal level is for Congress
to empower FTA with the statutory authority necessary to construct a logical and consistent
national safety framework. The Department’s rail transit safety proposal, a version of which was
transmitted to Congress in December 2009, and which received unanimous bipartisan support of
the Senate Banking Committee, proposed the basis for one such structure.

Subsequent to the passage of legislation that provides FTA with sufficient and appropriate rail
transit safety authority, it would be necessary to evaluate the nature and extent of a performance
plan that could provide meaningful and useful information in measuring the effectiveness of our
actions. Until such time, we believe the performance standards in place, along with the efforts
underway to improve data and as guided by TRACS to prepare for a possible future
enhancement of safety oversight authority, are sufficient.


Appendix. Agency Comments
                                                                                            29



Recommendation 4: Assess FTA’s progress in meeting the rail safety performance measures
on an annual basis and produce a report summarizing results.

Response: Concur in part. FTA maintains an array of regular reporting mechanisms conveyed
annually in the Department’s Annual Performance Report and the Department’s Agency
Financial Report, as well as in FTA’s Congressional Justification of Appropriations. Transit
condition and performance information is also included in the Department’s Conditions and
Performance Report which is updated every two years.

As described above, if enhanced safety oversight authority were provided, it may be necessary
and appropriate to reevaluate FTA’s progress in meeting established rail safety performance
measures and reporting mechanisms. Until such time, we believe those currently in place and as
identified by TRACS are sufficient.




Appendix. Agency Comments
